<html>
<title> - EXPANDING OPPORTUNITIES FOR SMALL BUSINESSES AT MILITARY BASES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   FIELD HEARING: MOORESTOWN, NJ: EXPANDING OPPORTUNITIES FOR SMALL 
                      BUSINESSES AT MILITARY BASES

=======================================================================

                                HEARING

                               BEFORE THE
                               
        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX, AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             AUGUST 1, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-040
             Available via the GPO Website: www.govinfo.gov
             
 
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-179                  WASHINGTON : 2019                     
          
-------------------------------------------------------------------------------------- 

 
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                            C O N T E N T S

                           OPENING STATEMENT

                                                                   Page
Hon. Andy Kim....................................................     1

                               WITNESSES

Mr. John Whittington, Business Representative, Sheet Metal 
  Workers Local Union 27, Farmingdale, NJ........................     4
Mr. Paul Costello, President of Del Ran Business Association, 
  Vice President of Sciacca's Upholstery, Delran, NJ.............     6
Mr. Raul Mercado, Director, New Jersey Institute of Technology 
  Procurement Technical Assistance Center, Newark, NJ............     7
Mr. Jeff Cantor, Colonel, US Army (Retired), Founder & CEO, NJ 
  State Veterans Chamber of Commerce, Marlboro, NJ...............    10

                                APPENDIX

Prepared Statements:
    Mr. John Whittington, Business Representative, Sheet Metal 
      Workers Local Union 27, Farmingdale, NJ....................    25
    Mr. Paul Costello, President of Del Ran Business Association, 
      Vice President of Sciacca's Upholstery, Delran, NJ.........    26
    Mr. Raul Mercado, Director, New Jersey Institute of 
      Technology Procurement Technical Assistance Center, Newark, 
      NJ.........................................................    28
    Mr. Jeff Cantor, Colonel, US Army (Retired), Founder & CEO, 
      NJ State Veterans Chamber of Commerce, Marlboro, NJ........    30
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
     EXPANDING OPPORTUNITIES FOR SMALL BUSINESSES AT MILITARY BASES

                              ----------                              


                        THURSDAY, AUGUST 1, 2019

                  House of Representatives,
               Committee on Small Business,
 Subcommittee on Economic Growth, Tax, and Capital 
                                            Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:10 a.m., at 
Town Hall, 111 West Second Street, Moorestown, New Jersey, Hon. 
Andy Kim, presiding.
    Present: Representative Kim.
    Chairman KIM. Good morning, everyone. Thank you so much for 
coming on out here today and thank you in particular to the 
panel here, the witness panel for taking time out.
    I will be very mindful of your time, so I will try to make 
this as effective and efficient as humanly possible. But it 
means a lot that you joined us here. I really want to thank 
Moorestown as well for hosting us. It is really wonderful to be 
able to do this right here in our own district.
    We are so focused on these field hearings. We just did one 
in Oklahoma not too long ago, just making sure that we are 
going out outside of Washington, D.C., and going directly to 
the communities, directly to the small business owners, to the 
business communities and associations, and understanding and 
learning what it is that we can be doing better. I wanted to 
make sure that we are trying to find some issues and some 
challenges that are out there and try to come up with some 
really tangible solutions to those.
    For those in attendance, I would like to just share some 
background on the proceedings. This is a formal field hearing 
of the House Committee on Small Business. Due to the format, 
there is not an opportunity for questions or public comment 
from the audience this time, but I thank you for your 
attendance and your interest in this issue.
    As I mentioned, these field hearings play a critically 
important role in the work that we are doing, and it is really 
just trying to bring the work of our Committee closer to our 
districts and to our communities and have an opportunity to 
share that view on the issues that matter.
    Right now, we are at a time when America's small businesses 
are an economic engine that drives growth in our economy. 
Nearly 30 million small firms in the United States represent 
99.7 percent of all employers and generate two-thirds of all 
net new jobs. Because of these firms' crucial work and role in 
our economy, it is imperative that Congress enact policies that 
promote small business, entrepreneurship, job creation, and 
also provide opportunities for growth.
    My priorities in Congress have been to increase access to 
capital so that entrepreneurs can start and grow businesses, as 
well as ensuring that small firms can adequately participate in 
the nearly $500 billion a year Federal marketplace.
    Small contractors offer unique opportunity for government 
because they are often nimbler than their larger counterparts 
by responding to market shifts and driving innovation more 
rapidly. The result in that is that governments receive high-
quality supplies and services at competitive prices.
    Congress has recognized the positive impact and, therefore, 
has established a minimum for the Federal contract set-aside of 
23 percent. Last year alone, small businesses were awarded over 
$120 billion in Government contracts. Yet the percentage of 
dollars awarded to small firms is just one measure of the 
success and not the only measure. And the size of the average 
award and the vendor count are some other examples of how we 
can gauge success.
    Despite contract spending rising over recent years, the 
number of Federal contractors working as Federal prime vendors 
is at a 10-year low. In other words, fewer contractors are 
receiving more contracting dollars.
    Another disappointing trend is that the recent data shows 
that there is a 32-percent drop in the number of small 
businesses that are contracting with the Government, from about 
131,000 to 88,000 during the last decade.
    In contrast, large vendors declined only 4 percent during 
that period, and this shows two things. One is that the small 
business supplier base is shrinking at a much higher rate 
compared to that of large vendors; and two, there are fewer 
small firms that are benefitting from incentives created in the 
Small Business Act to ensure their participation, and this is 
simply unacceptable.
    Right here in New Jersey's Third District, we have a number 
of small contractors ready and willing to provide goods and 
services. We also have the Joint Base McGuire-Dix-Lakehurst, 
the only tri-service U.S. DOD base, which also includes units 
from all five branches.
    The joint base, with its 44,000 service members and 
families that live and work here and the $9 billion in 
infrastructure supporting the base's operations provide an 
amazing customer base for small businesses in our area that 
work in different industries, from construction to 
manufacturing to technology. And that is why I am excited to 
hear about innovative steps the joint base is taking to bring 
new small businesses into the Government procurement process.
    I know the Air Force's Pitch Day, which awarded 242 SBIR 
contracts in 2 weeks and $3.5 million to 51 innovative 
companies in 1 day, those are going to be game-changers that 
can expand the industrial base and dramatically cut down the 
time it takes to award a small business contract. But I also 
want to hear about how we can improve the efforts at the joint 
base and others around the country to better serve our Nation's 
small contractors and ensure a strong defense industrial base.
    This is something that is very personal to me with the work 
I am trying to do as someone who sits on the Small Business 
Committee and as the Chairperson for this Subcommittee on 
Capital Access, Tax, and Economic Growth, but also I am on the 
Armed Services Committee. Especially being on the Readiness 
Subcommittee and other places, there are ways in which we can 
try to use these to understand the different perspectives and 
help you all to branch out.
    And during today's hearing, I look forward to being able to 
discuss these challenges that small businesses face in 
competing for contracting opportunities within the Department 
of Defense and how we can ensure that the joint base is able to 
take advantage of all that small businesses have to offer.
    Again, I want to thank the witnesses for being here. And I 
will just take a moment to explain how this works. I will 
introduce our witnesses before recognizing each one. We will 
give 5 minutes to make an opening statement that summarizes 
their written testimony.
    We didn't bring our gizmos and our gadgets from D.C. with 
the lighting system to let you know where things are at, but 
just try to keep around that time. But as we are here to be 
able to listen to you and as you have taken time out, we will 
certainly make sure that we listen to each and every word that 
you say. And again, just appreciative of your time.
    I would like to now introduce our witnesses. We have our 
first witness, Mr. John Whittington, the business 
representative for the Sheet Metal Workers Local Union 27. I 
met with Mr. Whittington earlier this year to discuss obstacles 
that sheet metal workers face when seeking contracting 
opportunities at the joint base.
    Welcome. Thank you for coming here.
    Mr. WHITTINGTON. Thank you very much.
    Chairman KIM. Our next witness is Mr. Paul Costello, 
president of the Del Ran Business Association and vice 
president of Sciacca's Upholstery in Delran, New Jersey, a 75-
year-old small business with a third-generation owner.
    Welcome, Mr. Costello.
    Our third witness is Mr. Raul Mercado, the director at the 
New Jersey Institute of Technology Procurement Technical 
Assistance Center. The Procurement Technical Assistance Center 
is a DOD program that is funded by the Defense Logistics Agency 
through a cooperative agreement with NJIT. This program 
provides free counseling in addition to training and technical 
resources to New Jersey-based businesses.
    Welcome, Mr. Mercado.
    And our final witness is Mr. Jeff Cantor, who is the 
founder and chief executive officer of the New Jersey State 
Veterans Chamber of Commerce, which launched in November 2018. 
His goal is to improve the economic environment for veterans in 
the State and to build the infrastructure to create greater 
competitiveness and success for veteran business entities. He 
also recently retired in 2017 as a colonel in the Army Reserve.
    Welcome, Mr. Cantor, and thank you for your service and 
what you are doing to be able to help support veterans in our 
community.
    Well, we are going to just start off, and then we will go 
down the panel. So, Mr. Whittington, I am going to turn it over 
to you. You are recognized for 5 minutes.

STATEMENTS OF JOHN WHITTINGTON, BUSINESS REPRESENTATIVE, SHEET 
  METAL WORKERS LOCAL UNION 27, FARMINGDALE, NEW JERSEY; PAUL 
   COSTELLO, PRESIDENT OF DEL RAN BUSINESS ASSOCIATION, VICE 
  PRESIDENT OF SCIACCA'S UPHOLSTERY, DELRAN, NEW JERSEY; RAUL 
     MERCADO, DIRECTOR, NEW JERSEY INSTITUTE OF TECHNOLOGY 
 PROCUREMENT TECHNICAL ASSISTANCE CENTER, NEWARK, NEW JERSEY; 
  AND JEFF CANTOR, COLONEL, U.S. ARMY (RETIRED), FOUNDER AND 
 CHIEF EXECUTIVE OFFICER, NEW JERSEY STATE VETERANS CHAMBER OF 
                 COMMERCE, MARLBORO, NEW JERSEY

                 STATEMENT OF JOHN WHITTINGTON

    Mr. WHITTINGTON. Good afternoon. Thank you, Congressman, 
staff, community, for this opportunity here to speak today on 
an important subject close to the hearts of many of the members 
I represent in the building trades.
    The joint base provides thousands of jobs for local 
residents. That being said, the base also supports our local 
and State economies.
    The members I represent work in the construction field. The 
base provides a lot of construction opportunities, offering 
renovations, additions, maintenance, so forth. The work on the 
joint base also provides paychecks, which, in turn, spurs the 
local economy. The many jobs I see bid out are to out-of-State 
contractors with minor realized economic advantage to the local 
economy.
    I get a bit choppy here because I threw it together, so 
excuse it if it sounds a bit choppy here.
    Our local contractors have an advantage that the base can 
save, in my opinion, an enormous expenditure of resources. Cost 
savings could include efficient production capabilities of the 
small contractors, production facilities that are located in 
close proximity to the base projects.
    Now these bullet points I have, I would like to elaborate 
here and there. I will make it brief.
    The close proximity point. If the product is damaged, let 
us say, for example, a facility in close proximity, usually 
within an hour's drive, could have that product sent back, 
refinished, you know, redone and sent back within an hour's 
time, you know?
    Production facilities utilize high technology standards. 
The contractors of the members I represent acquire and utilize 
the latest and up-to-date equipment, software, and practices to 
remain competitive.
    A highly skilled local area workforce. New Jersey is 
located in a highly competitive metropolitan area. To offer the 
highest-quality labor available on a project, we must make sure 
our area workforce has steady training throughout the year.
    We offer high-quality local apprenticeship standards. That 
goes along with the previous example. To offer the most 
competitive and affordable bids, our members are constantly 
trained on the latest equipment and programs the industry has 
to offer.
    I would also like to add that we take advantage of a very 
successful program called ``Helmets to Hard Hats.'' Veterans 
can start a career right out of the service with direct entry 
into our apprenticeship program. It is a program we are proud 
of and we have had tremendous success with.
    The workforce lives in the immediate area. The wages the 
workforce earns on these projects is spent and invested into 
the local area communities, infrastructure, government, and 
residences, for example. If you are an out-of-State contractor, 
you bring in your own workforce. That spending there is short-
lived in this State. The rest of the earnings are taken back 
and invested elsewhere, with practically no reinvestment 
benefit to the local area and the community.
    The base can work directly with the necessary trade for 
projects as a cost-saving measure in relation to our direct 
hire, which we are having progress within this State, and you 
know, maintenance, so forth.
    Some of the concerns I have with the projects on the base 
are as follows:
    The information on future projects on the base. I 
personally do not know if there is a website, a phone number to 
call, a location that I can visit where I can obtain possible 
future projects on the base.
    The lead time on information. The construction lead 
services I use usually have information a day or two too late. 
I constantly miss the opportunity to register by a certain date 
to attend a walkthrough of a project or a pre-bid meeting.
    Fair competition for local area companies and security 
issues that hinder access to projects. I am proud of the fact 
that the bases require an extensive background check on all 
persons wanting to access the bases. My job requires me to 
monitor projects and ensure that contractors, in State or out 
of State, are following local area standards for workforce 
safety practices, product quality, project timeliness in a 
drug-free environment.
    I would also like to check that the contractor is not 
taking advantage of a worker that may be unwittingly working 
for an improper local area wage. The last time I tried 
accessing a job, I was sent to two security offices and told to 
fill out forms for access to the base so that I might be 
granted access in 30 to 60 days.
    And my final point here, access to project personnel. The 
project lead services I employ have contact information, but 
the information sometimes is inaccurate, or I do reach someone, 
just not the right someone who I would like to speak to about 
projects on the base--for example, maintenance managers, 
project managers, even possibly a base commander. If there is a 
website, a publication, a phone number, or an office I need to 
visit to access this kind of information, I would greatly 
appreciate that kind of assistance.
    These points I have relayed are only a few. I feel a 
cohesive relationship with the bases and local area residents 
as well as the small businesses will yield immense cost-saving 
measures each week for everyone.
    That is all. Thank you.
    Chairman KIM. Thank you for your testimony.
    We are going to turn it over to you, Mr. Costello. You are 
now recognized for 5 minutes.

                   STATEMENT OF PAUL COSTELLO

    Mr. COSTELLO. Good morning. Thank you for inviting me to be 
able to testify on this subject here this morning.
    My name is Paul Costello. I am the vice president of 
Sciacca's Upholstering and Design Center and C&S Marine. 
Sciacca's Upholstering and Design Center is a 75-year-old 
establishment with third-generation ownership. We service 
residential, commercial, professional clients for all aspects 
of upholstery, custom-built furniture, window coverings, and 
on-site cleaning services.
    C&S Marine was a recent acquisition for us in November of 
2017. We hold the sole international license to produce 
upholstery for Correct Craft and Ski Nautique boats. We have 
eight dealers internationally and private clients worldwide. I 
am also the president of the Del Ran Business Association and 
an officer in the Riverside Business Association.
    I feel that our local small businesses can provide 
ancillary services that the Government is not prepared, nor set 
up to provide, such as specialty services, customized items, 
and large-scale refurbishing and manufacturing. There are 
hundreds of businesses in the Burlington County area that can 
provide these services to the military bases. The key is that 
they need to know how to connect and become properly 
registered.
    The action of cultivating a relationship between a small 
business owner and a military base is tremendous growth for 
that private business owner. The necessary documents, 
certifications, and credentials must be completed to be 
considered for available projects.
    My suggestion here for expansion is, one, keep the costs 
within reach so that a greater number of small business owners 
can join the program; and encourage the people that award these 
bids to seek out the small vendors for specialty items; and 
lastly, if it would be possible for the base to hold 
registration events for small business owners to attend to 
learn about the opportunities that are available at the base.
    My personal thoughts and experience in attaining a SAM 
registration, CAGE number, and having produced a Government-
friendly website for our business has been a large financial 
commitment. In the past year, we have seen only a handful of 
bidding opportunities related to our services. Most have been 
outside of our immediate service area.
    As a company, we have devoted our time cultivating military 
relationships by attending quarterly commander luncheons hosted 
by the Burlington County Regional Chamber of Commerce, and we 
have also been ambassadors for ranking officers at events such 
as the Annual Installation Dinner for the Burlington County 
Regional Chamber of Commerce.
    In closing, I truly thank you for your time and attention 
today and would be happy to respond to any additional questions 
you may have.
    Thank you.
    Chairman KIM. And thank you for your testimony.
    We are going to move on. Mr. Mercado, you are recognized 
for 5 minutes.

                   STATEMENT BY RAUL MERCADO

    Mr. MERCADO. Thank you, Congressman, for having us here to 
give our testimony.
    I am the director for the statewide PTAC here in New 
Jersey, where the NJIT Procurement Technical Assistance Center 
is one of 94 PTACs throughout the U.S. So as I was 
contemplating what I was going to testify here, a lot of what I 
am speaking on now is probably relevant to some other PTACs 
throughout the Nation because a lot of us kind of share the 
same pains and challenges and successes also.
    We have been hosted by NJIT for--this is our 36th year. 
Today is the first day of our fiscal year. And over the course 
of those 36 years, we have been successful in assisting small 
businesses acquire over $20 billion in contract awards. Just 
this past year, as I looked at the numbers this morning, $680 
million in contract awards for the past fiscal year. That is a 
significant chunk of opportunities that have been made 
available through our resources and our assistance with these 
small businesses.
    We are not just tasked to work with small businesses. We 
also assist large concerns, large Government primes in 
identifying and connecting with qualified small business 
vendors, so--in order to help them achieve their small business 
subcontracting plan goals. So that is a connection that we have 
made in the last several years in making sure that large 
businesses are also part of our portfolio so that the 
opportunities will continue to expand for the businesses here 
in New Jersey.
    And the way that we have been doing this is through 
strategic relationships with like-minded organizations. We work 
hand-in-hand with the Veterans Chamber, Mr. Cantor here, and 
other chambers, other organizations that have a small--that 
work with small businesses, and that has helped us reach in a 
little deeper to the New Jersey-based business community. We 
identify a match based on needs, goals of the organizations, as 
well as the small businesses and the large businesses. We look 
at the capacities and capabilities of other organizations that 
we work with.
    So there are certain things--because we are funded by the 
Defense Logistics Agency, there are things that we can't do, 
but some other organizations can do. So we complement one 
another. We work together for a common goal or to increase 
opportunities for businesses here in Jersey. In doing that, we 
start building trust, and it is through finding mutually 
beneficial and often complementary service offerings that I 
just mentioned.
    There is a lot of communication. Communication is very 
critical. We also have to take calculated risks many times. And 
without risks, there are no--we can't continue to do things the 
way we have done in the past. And oftentimes what we do is 
there is a unified message when we are working with these 
collaborators throughout the region and the State so that we 
can all reach our common goals.
    One of the things that happened earlier this--well, earlier 
this year, in May, I got contacted by the joint base, and they 
wanted to do a Pitch Day. So within a matter of 24 hours, we 
were able to set up some training for small businesses that was 
focused on them being able to do pitches to--effective pitches 
to buyers.
    We also do SAM registration workshops. So we focus more on 
SAM registration workshops because there were a lot of startups 
that were probably going to be participating in this. And you 
read the numbers on that Pitch Day. They were pretty 
significant for a 1-day pitch and a 1-day buy.
    Since then, we have--MacDill Air Force Base is having a 
Pitch Day today. We assisted them with that as well, although 
they are outside of our region. There is at least one of our 
small businesses that is based here in New Jersey that is 
pitching today in Florida at MacDill Air Force Base.
    So there are a lot of opportunities. This whole Pitch Day 
thing is--it is a huge change and new initiative because it is 
something that was set up by the Department of Defense that is 
out of the Federal Acquisition Regulations to kind of fast-
track these innovative solutions, and how do we do that in a 
way where we can have it done expeditiously and capture those 
innovations in a constructive way and in a fast manner?
    Some of the barriers that we found is that although there 
are 94 PTACs and there are millions of dollars allocated 
through the DLA, the Department of Defense for the PTACs, there 
is a huge lack of awareness of the resources that PTACs have 
available.
    And there is also the fact that there is inequitable 
funding of the PTACs. Let us say a statewide PTAC maximum for 
statewide is $750,000 that the DLA helps match. Now that is 
going up to a million. But a regional--and we have one regional 
county here--receives right now 450. That is going up to 650.
    And then, Congressman Kim, you mentioned being in this 
region, how expensive it is. It is totally--the money that we 
receive and what we can do with that money here in the New York 
metro area doesn't--can't compete with what the expenditures 
are out West or the Midwest.
    Let us see. So I think that some of the things that are 
barriers are access to knowing about future purchases, which is 
mentioned by one of the speakers, one of the testimonies here, 
burdensome documentation for small businesses. The legislation 
regulations are not keeping up with the times.
    I think the DOD did a great job with the CSO. I forget what 
the CSO is, but you have that in my documentation. The CSO is a 
new way for them to do business and that allows them to do the 
Pitch Days, so getting more creative with the legislation and 
the regulations.
    And then oftentimes what happens, Government kind of 
dictates what should be done for small businesses, and this is 
a refreshing--I have been doing this for over 20 years, and 
this is the first time in 10 or 15 years that someone or a 
Committee in Congress has--I have been involved with you asking 
us what are the needs, and often it is top-down. This is what 
we are going to do. This is the legislation. It sounds really 
good on paper, but it doesn't work because we don't have the 
small businesses involved, we don't have these organizations 
involved, and that has been an issue in the past. And I am 
looking forward to some big changes with our testimony and as 
you go across the country.
    Another big thing is when you talk about Government 
contracting, what is missing oftentimes, and for a lot of us we 
don't think about the large Government primes that will always 
get the bulk of business. Cars will continue to be manufactured 
by the large car manufacturers. The planes and helicopters will 
continue to be manufactured by those corporations. Now those 
corporations have small business subcontracting planned goals. 
The issue is that often they can't meet those goals, and that 
becomes an issue for us because they should be taken up to 
task. They need to be part of this equation.
    If we are looking to expand opportunities at the bases 
across the U.S., then we need to tell these large corporations 
you need to be at the door because we need people to retrofit 
seating, to build the bolts, to provide raw materials. And 
until that happens, we are losing a lot of opportunities 
because there is a lot of money there, and these large 
corporations cannot do it by themselves. They don't do it by 
themselves. So we need a fast track to those dollars that are 
available to the large manufacturers and Government 
contractors.
    Possible moves for success with this initiative to expand 
opportunities for small businesses at the bases. Maybe we 
should--or you should consider or somebody should consider one 
national point person to act as a czar or to build 
relationships at these communities.
    As the director of an NJIT PTAC, I am actively connecting 
the dots between manufacturers, organizations, chambers of 
commerce, whatever it may be. But in a national scale, if we 
are looking to increase opportunities for small businesses at 
the bases, we need someone who is a go-to person.
    Unfortunately, at the bases what we have are very dedicated 
staff members, but they change every several years. So they 
have a job today. Three years from now, they are gone. So what 
happens to those contacts?
    I am, right now, an honorary commander working with the 
87th Contracting Squadron, but I don't know how long that 
command--the lieutenant colonel is going to be there. So what 
happens when there is a switch?
    Okay, so we need to build those relationships nationally, 
to build relationships, to identify resources, make long-
lasting continuity connections and increase the commitment to 
funding and supporting PTACs. PTACs, you know, require 
legislation, equitable funding. And when a constituent comes to 
see you, refer them to the local PTAC because that is a way for 
them to get that assistance.
    And please don't forget the ``Dear Colleague'' letters that 
go out to support the PTACs. We are a service here. We are here 
to serve, and we are proud of serving and making a difference, 
but we need your help.
    Chairman KIM. Thank you. Thank you for that testimony.
    Mr. Cantor, we are going to turn it over to you for 5 
minutes. You are recognized.

                    STATEMENT OF JEFF CANTOR

    Colonel CANTOR. Thank you, Congressman. And I offer this 
testimony in the lens of a veteran, a veteran small business 
owner, a certified SDVOB, SBE, and hopefully soon, a certified 
HUBZone. Prior to that, I was Governor Murphy's veterans 
adviser during the campaign, and last year, I was the lead for 
economic development in the State of New Jersey.
    So thank you, Congressman Kim and Honorable Members, for 
allowing me to offer testimony on the issues affecting small 
and diverse businesses here in New Jersey and beyond. My name 
is Colonel Jeff Cantor, and I represent the 668 members of the 
New Jersey State Veterans Chamber of Commerce.
    In the 32 years I spent in the military, I was always 
taught to deliver the bottom line up front. So here it is. 
Small and diverse businesses in the State are not getting their 
fair share of procurement opportunities and experience 
unfriendly conditions to operating their businesses in our 
State. There are seven key areas that Federal intervention 
could have a profound effect on small and diverse businesses, 
which I will share with you in my testimony.
    To provide context, I will share with you that New Jersey 
has two set-aside laws currently on the books. One is for small 
businesses, and the other one is for service-connected, 
disabled veteran-owned businesses, or SDVOBs. The SDVOB set-
aside law, which is Public Law 2015, Chapter 116, has been 
public law since it was passed unanimously in 2015. Since that 
timeframe, roughly 3 1/2 years, not one contract has been set 
aside, and no money has been awarded to SDVOBs under the 
program.
    There are seven key areas where Federal intervention would 
have a profound effect on supporting small and diverse 
businesses.
    First, it would be advisable to add veteran-owned and 
service-disabled veteran-owned businesses to the Federal 
definition, according to the U.S. Department of Transportation, 
as a disadvantaged business entity, or a DBE. The current 
definition only includes African Americans, Hispanics, Native 
Americans, Asian-Pacific, subcontinent Asian Americans, and 
women who are presumed to be socially and economically 
disadvantaged. Other individuals can also qualify as socially 
and economically disadvantaged on a case-by-case basis.
    Veterans have a tougher time gaining access to capital, and 
since their service was usually away from their home State, 
they do not have the networks that other businesses have 
developed. Veterans and service-disabled veterans are truly 
disadvantaged business entities and need to be included in the 
Federal definition according to the U.S. Department of 
Transportation.
    Second, there are not very many service-disabled veteran 
businesses in this State and in many others. It would be 
advisable to introduce an SDVOB price preference law at the 
Federal level of 15 percent to accommodate for this shortfall.
    Many States have implemented a price preference law for 
SDVOBs because of the lower number of businesses. A 15-percent 
price preference law is needed in New Jersey and for the 
Federal Government. This would allow SDVOBs to compete in the 
open bid process. States like Michigan and Connecticut have 
already implemented these laws and have seen success.
    If the lowest bidder on a project is $100,000 and an SDVOB 
comes in at $112,000, under a 15-percent price preference law, 
it would mean that the SDVOB was the lowest technical bidder. 
Since we are not talking about a lot of businesses--there is 
actually 65 currently registered in the State of New Jersey--it 
would have a profound and positive impact on the SDVOB 
community with minimal risk and negative impact on the business 
community at large.
    Third, the Small Business Association has been a good 
partner to small and diverse businesses. It would be great if 
the SBA could expand their program to veteran business entities 
to provide greater access to capital, insurance, and bonding. 
These programs are needed as there are a dearth of programs 
available to support VBEs, veteran business entities, and allow 
them to take their businesses to the next level.
    Bonding and insurance costs are extremely high and can eat 
up the cash flow of a small business. Additionally, it is very 
difficult to obtain an appropriate amount of surety bonding 
without having to sign your life away and risk losing all you 
have worked for.
    Having the SBA roll out a program that is accepted at all 
Federal and State entities would relieve an enormous amount of 
stress on veteran entrepreneurs and allow them to compete for 
larger jobs, which would also allow them to hire more people.
    Fourth, the system for doing business in the New Jersey is 
very complicated to navigate. Right now, an SDVOB has to 
register with the VA to get the CVE certification. Then they 
have to register with the New Jersey State Department of 
Treasury, then with the Division of Purchase and Property, then 
with the Division of Property Management and Construction, then 
with New Jersey Transit, then with the Turnpike Authority, then 
with the utilities, then with the Port Authority, and so on and 
so on. This takes time, money, and effort away from the 
business owner. Instead, there should be one universal 
registration portal in the State. Once a diverse business is 
registered, they would be pre-qualified with all State 
entities.
    Unfortunately, there is no money in the State budget to 
allow for a universal portal system. Getting a grant from the 
Federal Government to roll this out would be advisable and 
welcome at State government levels. The cost of a total 
universal portal system would likely be $1 million to $2 
million.
    Fifth, there needs to be transparency of small and diverse 
spending at every Federal entity. Transparency in government is 
an extremely important tenet. There should be a mandatory 
listing on every Federal entity website that operates in New 
Jersey as to their small and diverse spends. It should be easy 
to find out how much the FAA or DOD or DLA or the U.S. Army 
Corps of Engineers, and so on, spend on African-American 
businesses, Hispanic businesses, women businesses, veteran 
businesses, and service-disabled veteran-owned businesses.
    There should be a percentage of overall annual spends, as 
well as the actual dollar spends, by diverse group so we can 
see they are primarily spending--how they are spending taxpayer 
dollars. Those dollars should represent the diverse background 
of our State.
    Sixth, there should be greater opportunities on Joint Base 
McGuire-Dix-Lakehurst and Picatinny Arsenal for veteran and 
service-disabled veteran-owned businesses. I know the folks at 
the small business office on the joint base, and they do a 
tremendous job. They do a great job of communicating and 
working with the Veterans Chamber and with the veterans 
community. When we have them speak, they do discuss their 
diverse spends. They have initiated a small business 
roundtable, but I have not seen any action to date which would 
support small and diverse businesses.
    Having procurement opportunity fairs on the bases would 
help bring small and diverse businesses to the procurement 
specialists on base. There should be some type of training 
program that can be rolled out. If an SDVOB did not get a 
specific contract on the base, then they could sit with the 
small business office and go through their bid and compare it 
to the winning bid to understand the differences and can show 
improvement in the future. That would be very valuable for 
SBEs.
    And seventh and finally, there needs to be more joint 
venture and mentorship opportunities with Federal contracting. 
By creating joint ventures and mentors, you create seasoned 
companies who help newer companies and startups break into the 
Federal field. It is extremely difficult to do it on your own, 
so having more joint ventures would create additional 
opportunities for newer businesses.
    I have recently written a white paper that I shared with 
the Governor on steps that the State can take to improve its 
support on small and diverse businesses. I think I already sent 
it to your staff. I provided my contact information for you 
should you need any further information.
    But I do appreciate the opportunity to come in today to 
speak, and thank you for your interest in helping out small 
businesses here in New Jersey.
    Chairman KIM. Thank you. I really appreciate that. And 
thank you, again, to the four of you for giving me and the 
Committee your perspective on this.
    It is interesting. I mean, I hear similarities. I hear 
different nuances between the four of you. And as I mentioned, 
when we are in Tulsa, Oklahoma, or Washington, D.C., for these, 
it is interesting because some aspects of this are unique to 
certain communities, certain States, but other aspects are 
broader and national in those perspectives. I mean, that is 
something where I am trying to get a better sense of this going 
forward.
    I certainly hear on a regular basis what it is that we can 
try to do, you know, here in New Jersey to be able to support 
and work with the joint base, work with Picatinny, work with 
other installations, other Government offices to be able to 
improve. And we are trying to figure out, you know, are there 
lessons learned from other States that we can implement here? 
Are there certain things that we can do nationally to be able 
to get at it?
    There are three aspects of this that I feel like are some 
commonalities that I would like to just get--to dig into a 
little bit more, but let me lay it out first.
    One is that what seems like a constant thread amongst the 
four of you, along with many others, is what can we do to 
remove barriers for small businesses when they are engaged in 
this type of work or trying to proceed down those roads?
    Two is that there is an ongoing difficulty in terms of just 
the opaque nature of this and just the difficulties of 
navigating, you know, some of the--what Mr. Whittington was 
talking about earlier, about just what is the transparency side 
of things or future projects, just so you are aware of what is 
on the table or going to be on the table so you can better 
prepare.
    And three, I think that hits at an issue of just what is a 
sense of fairness in the system as a whole to make sure that it 
is not just those that have the most connections and the 
biggest presence down in D.C. or the deepest history with 
working at a particular installation or with the Government, 
but that, you know, others have opportunities to be able to 
have that.
    And I think that a lot of what you have said kind of fits 
into some of those buckets. Of course, if there are other big 
aspects of this, please let me know. But I would like to just 
kind of go through them kind of one by one and just kind of get 
some of your deeper takes on this.
    So, you know, for instance, this question will be for all 
four of you, but I would like to start with Mr. Mercado. You 
know, one thing that you mentioned was about the burdensome 
documentation. That seems like an area in which there are, you 
know, barriers there, too. And I would like to just kind of 
learn a little bit more from you, you know, what specifically 
you are talking about, you know, any examples you might have or 
any thoughts you might have on how we can try to make that less 
burdensome for small firms.
    Mr. MERCADO. Well, first of all, understanding the process 
or responding to RFPs is a big issue. The Federal Acquisition 
Regulations, they are what they are. They are pretty difficult 
to understand, and that is something that we assist clients, 
navigating through that. But it is still quite a bit to handle 
for a small business who may be doing $10,000, $20,000 in 
business and needing to understand how they process an order, 
how they deliver an order.
    And I can understand why the regulations are there and 
things are supposed to be uniform in a lot of ways, but 
sometimes it is not a one-size-fits-all. There could possibly 
be some exceptions to those rules when it is something that is 
not a bolt that is going on a helicopter or something that is 
not as crucial as something that could be lifesaving or 
something that the warfighters need out in the field.
    It is cumbersome. It is difficult to understand. It is 
often--even for those of us who have been doing this for many 
years, to kind of grasp what is happening. There are a lot of 
new changes in certifications and regulations that are 
constantly coming down the pike.
    Now we have this issue of cybersecurity, which is not going 
away. And so there are some guidelines, but there are no 
stipulations or real solutions as to how to handle that as a 
small business. I mean, the list goes on and on. It is just--it 
is very difficult.
    It is good that the PTACs are here. I know I keep on 
referring to the PTACs because I--although we are here in New 
Jersey, but it is a common issue throughout all the PTACs, and 
we do try and assist wherever possible. But it is daunting for 
a small business to start playing in this field.
    The gentleman here on the left, Mr. Whittington, was 
talking about going out and doing wage rate interviews. Okay, 
that is what you were referring to.
    Mr. WHITTINGTON. Yes, sir.
    Mr. MERCADO. If you can't do the wage rate interviews, then 
you are not in compliance with your contract, and that can--
that is very detrimental.
    So things like that have to be addressed because it is part 
of his responsibility. If he can't do that----
    Chairman KIM. Yes.
    Mr. MERCADO. Then it is a problem. So it is all these 
little things. And I don't think we can address that here, but 
we should be having more roundtables as to how can we handle 
this in these different areas.
    Chairman KIM. Yes, and I think it gets to what you were 
saying earlier just about, you know, too often the Government 
trying to tell small businesses how to be able to operate, 
rather than understanding what--you know, what the experience 
from your end is.
    And Mr. Costello, something you raised, you know, along 
this idea of barriers that are there, you know, you mentioned 
and alluded to financial burdens, you know, as another 
impediment to doing business with the Government. So I would 
like to hear just a little bit more from you about that in 
terms of what are some of the costs that small businesses such 
as yours incur in order to try to offer its products to--and 
services to the Government, and why is it so expensive.
    Mr. COSTELLO. Yes. The cost of it was for us to actually 
set up and register as a--get a SAM registration and a CAGE 
number, and then we were informed that we needed to have a 
Government-friendly website because of the people that do the 
bidding and stuff. They have to have a certain area on the 
Internet that they can go to and not be on the Worldwide Web, 
but a certain area that they are allowed into. So that was a 
cost involved to us to have all of this set up.
    And we went through a third-party company that did this for 
us that was on the Government website when we went to register. 
It said you have to contact these people here. So we contacted 
them. Of course, then we found out there was fees and costs 
involved in doing it, which we figured would be, you know, 
offset by eventually starting to do business with the 
Government. And then nothing came of it, nothing in our local 
area that we could service.
    And now hearing all of the other stuff that we may have to 
do once we get that bid, it would be pretty daunting for a 
small company like ours.
    Chairman KIM. And that is helpful.
    And I think, Mr. Whittington, I mean, I think one thing you 
mentioned kind of fits into this in a different direction. I 
mean, sure, some of the other points that were just mentioned 
are ones that you struggle with as well. But one that kind of 
stuck out to me that you talked about was just about the 
security side of things as well, in terms of getting people and 
workers actually on the base or on a different installation.
    So I would like to hear from you just a little bit more 
about that in terms of the security clearance process on your 
end, elements that you saw that might be able to be expedited. 
But things that--you know, that sounds like it is another 
barrier in addition to the financial burdens or in addition to 
paperwork. But I would just like to hear about that a little 
bit more from you.
    Mr. WHITTINGTON. Thank you.
    I am one of the largest advocates, I would say, on 
security, especially at the bases, with the past decade-worth 
of incidents we have had on the bases. You know, it has been a 
bit scary. But that being said, I also have the obligation to 
my members, to the building trades to help form a more cohesive 
relationship with the bases.
    And in respect to what you are asking, it would seem that 
there might be an easier process to vet, you know, my members, 
vet myself to be able to go on, instead of a 30- to 60-day, you 
know, background check, which I more than advocate for. But it 
seems--doesn't seem to be a good way of doing business on the 
base.
    I hate to sound so--you know, lay on it, but it doesn't 
work. It just doesn't work.
    Chairman KIM. Let us say you go through that process. In 
the 30 to 60 days, you get a clearance. How long does that stay 
with you?
    Mr. WHITTINGTON. I was told I would have clearance, you 
know, during the term of the job, you know?
    Chairman KIM. And then if there were to be a subsequent 
job, you may have to----
    Mr. WHITTINGTON. Again, yes.
    Mr. KIM.--go through it again?
    Mr. WHITTINGTON. Yes. And thank you for elaborating on 
that. I appreciate that. Man----
    Chairman KIM. Because I think for----
    Mr. WHITTINGTON.--I mean, you have said it. You have said 
it best, to be honest with you. That would--that is my major 
concern right there, access and the ability to access these 
jobs on the base once you are cleared.
    If my members can go through in a gate, show a card, sign 
in and go in, you know, they have been vetted through the 
contractor. You know, they submit their information. They do a 
background check--could be 15 days, 30 days--why is it that, 
you know, another person who, in relation to that job, has to 
take 30 to 60 days to--you know, for the same background check 
on multiple----
    Chairman KIM. Yes, this is something that we will make sure 
we dig into a little bit more here. We don't have a 
representative from the base here.
    Mr. WHITTINGTON. Right, I understand.
    Chairman KIM. And there may be a process there that--but it 
kind of goes added to what you were saying earlier, just the 
process being a bit opaque, at least from your perspective 
there.
    Mr. WHITTINGTON. Right, right.
    Chairman KIM. And what is it that we can do or others can 
do to just try to clarify. I have often found that--you know, I 
have often found, certainly at the joint base and Picatinny, 
and a lot of the places here in New Jersey, that a lot of the 
folks there, they want to make sure that they are connecting in 
with the communities. They want to make those opportunities 
available to people. And I found them very accommodating to try 
to make certain things happen.
    And I find that sometimes there is a disconnect between 
what it is that they are putting into processes and then how it 
is being implemented or how it is being perceived or received.
    But I think your point was really spot-on. I mean, look, 
all of us want to make sure that we are continuing to have 
security on these bases. You know, I was a career prior to this 
in national security. I lived on military bases before. I 
understand how important that is.
    But we also want to make sure that we are able to really 
draw on the community in the same way that we here in New 
Jersey want to absolutely embrace the joint base and embrace 
all of the other installations that are so important because we 
are proud of it.
    Mr. WHITTINGTON. Yes, absolutely.
    Chairman KIM. And they are great for our economy, for our 
communities. But we also want to make sure that there is a good 
relationship, and it is not isolated and closed off from the 
communities because that--I mean, you know, I remember growing 
up here. We used to just be able to drive through the base, and 
obviously, after September 11th, that is no longer doable. And 
I have seen a change just over time, and I am sure that is the 
same with communities across this country. So in this era where 
we have heightened concerns about security, of course, how can 
we try to find that element? So I absolutely want to work with 
you on that.
    And I think, Mr. Cantor, you know, you raised a point as 
well. That just sounds so frustrating about how, you know, a 
business--a veteran-owned business, how they have to get 
certifications, you said, from the VA and then from elsewhere. 
I mean just having to constantly go in that kind of process.
    I mean, I am sure you have looked into this and others, but 
you know, what are the barriers to try to streamline that 
because then, you know, you also have the Federal side of 
things, but then also the State level.
    So I guess my question to you is that I am sure that we are 
not going to be the first to try to streamline this process and 
see what we can do. Others have tried before.
    You know, what have been some of the barriers there to try 
to get a system that is more respectful of the time of small 
business owners that, frankly, don't have the time to just 
constantly jump through these hoops? You know, it is usually 
just them or just a handful of employees. This isn't some big 
corporation where they have an entire division, you know, 
dedicated to handling Government work or legal work, right?
    So I guess I just kind of want to get a steer from you of, 
you know, where do you think we can be putting our energy or, 
you know, what are some of the other areas that we should be 
looking into here?
    Colonel CANTOR. Thank you for the question, Congressman.
    So a couple things. With regards to the certification 
process, I will tell you that it eats up 80 percent of your 
time. As a young entrepreneur, it eats up 80 percent of your 
time.
    You should be focused on business development. You should 
be focused on, you know, trying to find work to sustain your 
business. But you can't play in that game unless you have the 
certification, so it is sort of like a catch 22.
    So for me, for my example, I own a construction company 
here in New Jersey. I applied to the VA with the help of the 
PTAC, I might say, so they have been very, very helpful in 
helping me get my certification. And even with their help, it 
took me 6 months to get that certification.
    Chairman KIM. Six months.
    Colonel CANTOR. Six months. And that is on the fast side. 
That is on the fast side. The time I did this before, it took 
over 9 months.
    And what I tell people in the Chamber when they are going 
for the certification is plan on a year, plan on not having 
your CVE certification in a year's time.
    Now what we were able to do, as part of the advocacy from 
the Veterans Chamber, is we were able to get the State to 
change the verbiage in the rules and regulations on certifying 
as a service-disabled veteran-owned business in the State of 
New Jersey. So now you have to supply a DD-214, which is your 
proof of service, and if you have a letter from the VA stating 
that you do have, in fact, a service-connected disability, then 
you are eligible to become a service-disabled veteran-owned 
business in the State of New Jersey.
    Unfortunately, with the 3-percent set-aside law the way it 
is, it doesn't really help because there is not business to be 
had right now in the State of New Jersey. So you have to go 
elsewhere, like New York and Pennsylvania.
    So for me as a business owner, I spent an inordinate amount 
of time getting certified with the VA, getting certified in the 
State of New Jersey, getting certified with Pennsylvania, 
getting certified with New York, so that there is business 
opportunities. So I can play in a lot of these games, and I can 
apply for work. And that is just the ticket for entry.
    Now I have to work on building on my business, right? Now I 
have to work on, okay, for FedBizOpps, all these jobs come out. 
I have to look closely. And you know, these RFPs are not easy 
to work through and translate. Some are hundreds of pages long. 
And you go through these RFPs and you could literally hire like 
four other people just to go through the RFP process to put a 
bid in for this--for any specific job. So it is a painful 
process. It is a process that is at hand. So that is the 
environment we are playing in.
    But I would tell you that the thing that I think if you 
were able to focus your efforts on, the two most important 
things, number one is we understand that we have to wait this 
amount of time for the CVE process through the VA, to get 
vetted and certified as a disabled veteran-owned business. In 
that interim, what we can do or what Congress could do is to 
get the Department of Transportation to recognize veteran 
entities--veteran business entities as a disadvantaged business 
entity. That will shorten the amount of time it takes for 
veterans to compete in a lot of these jobs that are currently 
available as a DBE, as opposed to waiting for their SDVOB.
    So that would be job number one, would be get the veteran 
business entities recognized, U.S. DOT, as a DBE. Second, to 
support our disabled-veteran business community, is to have 
that price preference, have a national price preference, 15 
percent, to support these disabled-veteran businesses.
    That is the only way that disabled veteran-owned 
businesses--because they don't necessarily have the ability to 
scale up for any specific jobs, so the only way they can 
compete, truly compete, is to have a 15-percent price 
preference.
    Chairman KIM. Thank you for that.
    Just going back, I mean, you know, Mr. Costello, I thought 
a point you just kind of made in your last response was 
interesting. I mean, you were talking about the barriers that 
you had to go through just to get off the ground and then you 
were remarking of what you are hearing about the road forward 
here.
    I guess my question to you is just what are you thinking 
about as a business owner about the return on your investment 
then? You know, when you are thinking about these financial 
burdens, when you are--you know, the paperwork and you are 
hearing now about some of these other things, like, you know, 
if you were to kind of start over again knowing what you know 
now, how would you feel about the return on your investment and 
what it has to undertake to offer your products and services to 
the Government?
    Mr. COSTELLO. I would definitely reconsider, especially out 
here, the paces we have to go through once we do, you know, 
submit a bid. But we thought, you know, going forward with this 
would be a great opportunity to have the service. We are a very 
mixed business, and there is--anywhere we go, anybody is a 
potential customer for us. If there is like something at home, 
it has got a window. With the Government, at the base, every 
aircraft carrier or every airplane has a seat in it, at least 
one. The base has multiple seating areas where, you know, money 
could be made.
    So that is what we initially looked at was the volume of 
work that was available to us at the base. And then once we got 
started with it, we figured, okay, this is just a start-up 
cost. We will, you know, start to see some return on it, and 
then we haven't seen anything yet.
    But now another example, just to keep going--but what is 
going to come down the road next, I don't really know if it is 
a fit for a business that is as small as we are.
    Chairman KIM. Yes.
    Mr. COSTELLO. Again, I don't have, you know, an entire 
staff dedicated to going through the process doing all that 
other stuff.
    Chairman KIM. Well, I think that is very reflective of, I 
am sure, what a lot of other business owners think across the 
board here, right, and--absolutely.
    And Mr. Mercado, I was going to turn to you anyway. You 
successfully made PTAC the official acronym of this hearing. 
That is definitely sticking in all of our minds here.
    So, you know, I love your perspective on just that 
question. But I guess I also just want to ask you just a little 
more detail about workshops that you guys are doing or other 
information you provide, and like what are some of the things 
that you are doing that you have seen to be most effective or 
most supportive or providing that kind of assistance to small 
businesses?
    You know, when you hear what Mr. Costello was just saying, 
what goes through your mind in terms of what it is you might be 
able to provide or other things that we might be able to do?
    Mr. MERCADO. Well, let me go back a little bit and just say 
that I have been on the small business end, and that is kind of 
why I ended up here because of the frustration I had as a small 
business owner and seeing developments coming up and thinking 
that--I had a liquor license, and I thought it was going to be 
worth millions. And it turns out that the city gave licenses to 
these big conglomerates for a song and dance, and all the 
licenses along the waterfront were basically worthless.
    After that, I got into small business development, and then 
I am here today as an advocate to small businesses and to take 
that frustration, rather than being frustrated, let us see what 
I can do to effect some change.
    And years later, now I am at the helm of a PTAC here in New 
Jersey statewide and, again, changing everything the way it 
used to be done, and now we are focusing more on value-added 
training with webinars, live sessions with subject matter 
experts helping people.
    Colonel CANTOR. Do you have an expo?
    Mr. MERCADO. Huh?
    Colonel CANTOR. Do you have an expo?
    Mr. MERCADO. We have a matchmaking conference. Okay, you 
mentioned Procurement Expo, but everybody has Procurement Expo.
    Our expo was a little more difficult to put together and 
more costly, and it is a big headache for us. But guess what? 
At the end of the day, what we want is to connect the dots 
between a small business, Government buyers, and large primes.
    So, yes, we may not make--we may not be doing 500 or 1,000 
people coming into the event, but we can have several hundred 
people connecting with potential buyers. So we have doing that 
for the last 3 years, and we are looking to gain more success 
doing that.
    We do one-on-one counseling. So as you come in--when Jeff 
came--Mr. Cantor came in to us, he was just getting started, 
and there is a lot of unknowns. Yes, somebody wants you to get 
certified here. They want you get certified there. So we assist 
through that process.
    Now, mind you, we are short-staffed and we don't have that 
much funding, but we try and do as much as we can. And you 
know, we would like to help everybody with their 
certifications, and we try and do that. So now we are going 
from individual classes and individual one-on-one counseling. 
We are trying to do group counseling--I mean group sessions so 
that we can get everybody in a room and do the SAM 
registrations, rather than doing them individually. We have bid 
match services that kind of connect you to bid opportunities 
that are coming your way.
    The issues with the bids, whether they are Federal or they 
are private sector, is that you usually don't get much lead 
time. You are lucky if it is a 4-week lead time. And by the 
time you find out and look at it, you may have 1 week to 
respond. I don't see that changing anytime soon, but we try and 
assist--we assist through that process, also.
    As you are putting the proposal together, we are reviewing 
the proposal. Before you submit the proposal, we will review it 
and make sure that your I's are dotted and your T's are 
crossed, but it is a big endeavor.
    And we--and the certifications, oh my, God, it is just 
unbearable. New Jersey has a certification. New York has a 
certification. There is the small business certifications with 
the Federal Government. Then there is the VA. And then if you 
want to do a DBE type--DOT work, then you have to get DBE 
certifications as well if you want to do work at the airport.
    Right now--recently, a lot of those DOT certifications have 
been unified now so that now you don't have to certified here 
in New Jersey and also in California, you know, so that is kind 
of a win. But the certifications can be daunting, and you have 
to keep them up. It is either once a year or once every 3 
years, and there are charges for them.
    But you know, we are in New Jersey. And I am almost a 
lifelong resident of New Jersey. I was raised here. Born in 
Brooklyn, raised in Jersey City. But when I look at what New 
York State has done, and they have--what is the percentage they 
have----
    Colonel CANTOR. They have--well, they----
    Mr. MERCADO.--for veterans?
    Colonel CANTOR. Six percent.
    Mr. MERCADO. Six percent.
    Colonel CANTOR. Set aside.
    Mr. MERCADO. Set aside. And they got--they are actually 
doing business with veterans, and they are certifying New 
Jersey State veterans as well. I think we have lessons to learn 
from New York State.
    And I remember when Governor Cuomo came up at the Small 
Business Forum a number of years ago, and he upped the 
percentage up to 25 percent.
    Colonel CANTOR. Now it is 30 percent.
    Mr. MERCADO. Now it is 30 percent. And we all thought--I 
thought he was losing it. But guess what? New York is doing it. 
And why can't we do that here in New Jersey?
    Chairman KIM. Yes, I think you are right. I mean, look, 
there is no single layer of government that is going to have 
all of the solutions to this.
    And I am trying to be--thinking through, you know, what are 
the different strategies that we can be having, you know, at a 
local level, at a State level, at a Federal level, from a small 
business angle, from an armed services angle, and trying to get 
at this.
    And I think it goes back to what I was saying earlier of 
just, you know, what is our sense of fairness, you know? And I 
think a lot of these issues are structural and systemic 
problems that deal with just the rigidity of the regulations 
and the systems that are there.
    But some of it is also just--I think the right word would 
be, you know, maybe more personal in this way in terms of, you 
know, how we try to navigate within our own communities.
    And, Mr. Whittington, I just want to go back to you on this 
one. I mean, you know, you have laid out your frustrations on 
the transparency side and the lead time, a lot of the things 
that we have talked about here. I know this is an issue that 
has been, you know, frustrating for you and others for years, 
and so I don't want to make it seem like we are just 
discovering that this is a problem, right?
    Mr. WHITTINGTON. I understand.
    Chairman KIM. Like we absolutely want to make sure that we 
have local workers having a fair shot at the type of projects 
that are going on, whether for joint base or for any Government 
operation. And when I see construction projects happening at 
the base, I am just thinking are they bringing in local 
workers? Sometimes they are not, and I am trying to get a 
handle on that.
    So, you know, I guess I would just like to get a sense from 
you just, you know, personally, as you have been trying to get 
a sense of what is fair for local workers, what have you tried 
before, and what have been some of the barriers that you have 
connected in? I know you have tried to engage with different 
people working at the base and other things like that. What 
have you seen to be maybe successful? What have you seen to be 
some of the problems?
    And then on top of that, I am sure one of the things you 
probably mentioned is the fact that there is just such 
turnover, too, you know once you start building a relationship. 
You know, we have a new commander--base commander now who just 
came in, and we will have to start building these relationships 
again and then in many ways just feel like we are kind of 
pushing back up those same hills. Each time, hopefully, we 
learn, but I would just be interested in hearing your 
perspective of it.
    Mr. WHITTINGTON. Thank you, Congressman.
    I guess you brought up an important point about the 
turnover that--not to be redundant, but that is an important 
point. You know, these gentlemen here have expressed their 
concerns about the fact that--you know, the turnover. You form 
a relationship, they leave 2 years later, a year and a half 
later. You know, you are doing great there, next thing you 
know, the new commander--I will just use one, for example--
comes in, a new agenda, new opportunities, new ideas. It may 
not be conducive to the way you were doing business prior. 
Sure, we have to adapt and work with the new--you know, the new 
commander.
    But in any case, some of the other frustrations there, as 
you mentioned, I guess, would be--you know, I have to admit 
that I am relatively new in this position, okay, so it is been 
great learning, you know, the new ways and the new ideas, who 
to approach, who to talk to. There is a lot of community. 
Burlington Chamber Regional Commerce, you know, they have a 
great packet you can start with. You know, it is a good 
starting point. But where do we go from there? You know, where 
do we go? Who do we talk to?
    These gentlemen here provide excellent opportunities, you 
know, but how do we get that information out to the small 
businesses? How do they even understand who to talk to, where 
to go to, unless I stumble upon them, unless Mr. Mercado or Mr. 
Cantor or Mr. Costello has an opportunity to talk to them?
    Chairman KIM. Who is the point person?
    Mr. WHITTINGTON. Right, exactly. Excellent point. Maybe one 
national point person or point office, you know, as it was 
suggested. Excellent, you know?
    And personally, it is--I can only say, personally, it is 
been a great learning opportunity, as well as frustrating, to 
learn how cumbersome it is to, you know, grasp as I start to 
grow. It is almost like an endless the more I know, the less I 
know.
    Chairman KIM. Well, look, we are all going to be working 
together to try to figure out, you know, a way in which we 
could try to address some of these issues. And you know, each 
of you brings a great perspective here, and certainly, we will 
be laser-focused on trying to figure out some of these steps 
forward.
    Before we start to bring this to a close, Mr. Cantor, I 
just wanted to turn back to you. I would be interested in 
hearing, you know, your reactions to what Mr. Whittington was 
saying about some of these struggles, just getting the 
transparency, focused on that, but a little bit more of just 
what your understanding is. You know, what, in your mind, is 
that fairness level? You know, what is it that we are trying to 
be pushing for?
    And I thought also, you know, a part that you mentioned 
earlier, which was about being the subcontractor side of things 
there, too, you know, so--you know, that you and Mr. Mercado 
were talking about.
    So I would love to just kind of hear any sort of final 
thoughts in your mind, as you provided us a lot of really 
concrete, you know, potential steps that we can be taking.
    Colonel CANTOR. Yes, Congressman, and thank you again for 
the opportunity.
    The one thing that I would address is that in 2021, it is 
likely that we will face another BRAC hearing. And to dispel 
the presence of the joint base going away in a BRAC--because, I 
mean, we had this happen in New Jersey with Fort Monmouth--the 
most effective way to counter a BRAC is to show the economic 
vitality that the local community has with the joint base, 
right? So, and it takes time to do that. It takes time to build 
that infrastructure.
    So to avoid BRAC, and especially joint base because it 
provides a lot of employment opportunities and a lot of 
opportunities in general, we need to be able to start now to 
showcase how the joint base works with the local community and 
how businesses like Mr. Costello's or like mine has an impact, 
has interest in the joint base, and vice-versa, right? So 
unless we do that, we are going to face what happened to Fort 
Monmouth several years ago when that was BRAC'd.
    So, as a newly formed entity last year for my business, my 
only way forward right now in the--on the Federal side is to 
come in as a subcontractor. So I have to build my base of 
business to show people I can do the work, but I can't do it as 
a prime because I don't have the experience because when you 
apply for work in the Federal Government as a prime, you have 
to show past experience. So I don't have that as my business.
    I have hired people that have past experience with other 
companies, but that doesn't count because it is my entity, 
right? So now, I am starting from scratch. So the only way I 
can break in is at a subcontractor level.
    So the issue is, you know, how do you create more 
opportunities for businesses like mine, for businesses like Mr. 
Costello's as a subcontractor that can be sort of like handheld 
with a joint venture or a mentorship program to say, all right, 
here we go. I am going to do--the prime vendor is going to do 
this. We want the subcontractor to do this part of this job to 
test the waters to see, A, how you do and, B, to establish a 
base of business so then you can eventually come up and become 
a prime contractor.
    So I think more subcontracting opportunities is the way 
forward, and the way to do that is with more joint venture and 
more mentorship opportunities with the joint base. But unless 
we are showing a total involvement with as many businesses in 
our communities that surround the joint base, BRAC is going to 
be ever-present.
    Chairman KIM. Well, I appreciate all of your comments today 
and the insights that you have been able to provide. As I 
promised, I would be mindful and respectful of your time as 
well, so we will start to bring this to a close here.
    But I certainly feel like I have a clearer idea of some of 
the challenges that are out here and what it is that you or 
other business owners that you work with are experiencing here.
    And it is frustrating. It is frustrating, and I think that 
this is exactly the type of work that the Small Business 
Committee is trying to stay on top of. And I see it every day 
down in Washington that so often on the issues that we talk 
about, whether it is about healthcare or the economy or jobs, 
oftentimes, we know that, you know, the biggest corporations 
and those, you know, they are there. They have their voices 
heard, and they are talking about it.
    But it is even just difficult for us to get small business 
owners down to D.C. to testify because they have got their 
business to run. And if they are not there that day or the next 
day because they are down in D.C., that means somebody has got 
to cover and what kind of trouble. So, you know, this is the 
role that the Small Business Committee is trying to play to 
make sure that we can be a voice for small businesses.
    And I will tell you that it has been truly a great honor to 
be able to work on this Committee. And I know you watch the 
news and you see the divisions that happen and the disputes 
that happen down in D.C., but this Committee is one where I can 
assure you I have talked to every single Member on both sides 
of the aisle, and they feel very committed to this.
    You know, if ever there was an issue that we can rally 
around and put aside any differences, it is, you know, looking 
out for our small businesses, especially small businesses that 
are trying to work to better secure our country and work with 
our--support our armed service men and women and our 
Government. You know, these are the types of commitments that 
we are trying to make sure we lift up and be able to support.
    I often say, you know, on the Small Business Committee and 
the other Committee I am on, the Armed Services Committee, 
these are Committees that really have shown a lot of 
bipartisanship in this time. And you know, oftentimes, you 
could probably just print out a transcript of these Committee 
hearings, especially the Small Business, and just block out the 
names, and you won't know who is a Democrat or Republican. You 
know, they are just trying to, you know, hone in on this.
    So in that vein, as well as the vein of what we said of 
just meeting people where they are at, being able to come to 
you, talk to you, I just want to again say sincerely on behalf 
of myself as the Chairman of this Subcommittee, as well as the 
entire Committee who I have talked to extensively prior to this 
to make sure I can reflect the questions and the concerns and 
the issues that all of the different members are asking, I just 
want to again say thank you.
    We certainly have our work cut out for us, and I feel like 
coming out of this, there are a lot of things that we need to 
follow up on. I am sure we will be staying in touch with you, 
as well as others here participating today and other small 
business owners and others that weren't able to make it. And we 
will just, you know, keep at this and do what we can to be able 
to support.
    At this point, we will start to bring this to a close. So I 
am asking for unanimous consent that members have 5 legislative 
days to submit statements and supporting material for the 
record. And without any objection, so ordered.
    And if there is no further business to come before this 
Committee, we are adjourned.
    Thank you so much.
    [Whereupon, at 12:31 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
